 




    NATIONAL
    TELECOMMUNICATIONS
    AND INFORMATION
    ADMINISTRATION
    Significant IT Security
    Program Improvements
    Are Needed to Adequately
    Secure NTIA’s Systems




    FINAL REPORT NO. OIG-12-035-A
    SEPTEMBER 7, 2012



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation


    For Public Release




 
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   Office of Inspector General
                                                   Washington, D.C. 20230




September 7, 20 12

MEMORANDUM FOR:               Lawrence E. Strickling
                              Assistant Secretary for Communications and Information
                              National Telecommunicaf ns nd Information Administration

FROM: 	                       Allen Crawley                             ~
                              Assistant Inspector eneral for Systems   ~u~
                                 and IT Security

SUBJECT: 	                    FY 2012 Federal Information Security Management Act Audit:
                              Significant IT Security Program Improvements Are Needed to
                              Adequately Secure NTIA's Systems, Final Report No. OIG-12-035-A


Attached is the final report of our audit of NTIA's information security program and practices,
which we conducted to meet our obligations under the Federal Information Security
Management Act (FISMA). In FY 20 12, we assessed the security of seven NTIA systems.

We found deficiencies in NTIA's systems, including (I) inadequate security categorizations that
jeopardize critical bureau information, (2) significant weaknesses in IT software and hardware
inventory practices, (3) major deficiencies in NTIA's security weakness remediation process, (4)
weaknesses in managing its IT security workforce and developing effective IT security policies
and procedures, and (5) significant deficiencies in key IT security controls.

We are pleased that, in response to our draft report, you concurred with our findings and
recommendations. We have summarized your response in the report and included the
response as an appendix. We will post this report on OIG's website.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 calendar days from the date of this memorandum. The plan should outline
actions you propose to take to address each recommendation.

We appreciate the cooperation and courtesies extended to us by your staff during our audit.
Please direct any inquiries regarding this report to me at (202) 482-1855 and refer to the
report title in all correspondence.

Attachment

cc: 	   Simon Szykman, Chief Information Officer
        Griff Drew, Chief Information Officer, NTIA
        Tim Hurr, Acting Director, Office of Cyber Security
        Milton Brown, Audit Liaison, NTIA
        Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                            Report In Brief                                  S E P T E MB E R 7 , 2 0 1 2




Background                               NATIONAL TELECOMMUNICATIONS AND INFORMATION
NTIA is principally responsible for      ADMINISTRATION
advising the President on telecom-
munications and information policy       Significant IT Security Program Improvements Are Needed to
issues. These issues include expand-     Adequately Secure NTIA’s Systems
ing broadband Internet access and
adoption in America, ensuring that       OIG-12-035-A
the Internet remains an engine for
continued innovation and economic        WHAT WE FOUND
growth, managing the federal gov-
ernment’s use of spectrum                Fundamental steps for securing NTIA’s information and systems have not been
(airwaves), and ensuring that Amer-      taken. When assessing seven NTIA systems, we found these deficiencies:
ica’s domestic and international spec-   (1) inadequate security categorizations that jeopardize critical bureau
trum needs are met while making          information, (2) significant weaknesses in IT software and hardware inventory
efficient use of this limited spectrum
                                         practices, (3) major inadequacies in NTIA’s process to remediate security
resource.
                                         weaknesses, (4) weaknesses in managing its IT security workforce and developing
                                         effective IT security policies and procedures, and (5) significant deficiencies in key
                                         IT security controls. These issues have resulted in ineffective management of
Why We Did This Review                   security controls needed to protect NTIA’s systems and information.
The Federal Information Security
Management Act of 2002 (FISMA)           WHAT WE RECOMMEND
requires agencies to secure systems      The Assistant Secretary for Communications and Information should ensure:
through the use of cost-effective
management, operational, and tech-       1. 	 The authorization status of NTIA’s systems is revised to interim
nical controls. The goal is to pro-           authorization to operate until these activities have been completed:
vide adequate security commensu-
rate with the risk and extent of         a. 	 System owners and NTIA officials collaborate to identify and categorize all
harm resulting from the loss, mis-            information types that are processed, stored, or transmitted by each system
use, or unauthorized access to—or
                                              and categorize each system accordingly.
modification of—information col-
lected or maintained by, or on be-
half of, an agency.
                                         b. 	 System owners develop and maintain an accurate hardware and software
                                              inventory for their systems.
In addition, FISMA requires inspec-
tors general to evaluate agencies’       c. 	 NTIA implements and assesses appropriate IT security controls.
information security programs and
practices, by assessing a representa-    d. 	 NTIA follows the plan of action and milestones process required by the
tive subset of agency systems, and            Department’s IT security policy.
the results are reported to the
Office of Management and Budget,         2. 	 System owners, IT security officers, authorizing officials, and other staff with
the Department of Homeland Secu-              critical IT security roles are appropriately trained, earn certifications as
rity, and Congress annually.                  required by Department policy, and have the required metrics incorporated
                                              into their performance plans.

                                         3. 	 NTIA’s chief information officer and IT security officer develop and main-
                                              tain NTIA security policies, procedures, standards, and guidance consistent
                                              with departmental and federal requirements.
U.S. DEPARTMENT OF COMMERCE                                                                                          OFFICE OF INSPECTOR GENERAL


Contents

Introduction .......................................................................................................................................................1

Findings and Recommendations ....................................................................................................................2

I.         Inadequate Security Categorization Analysis Jeopardizes Critical Bureau Information .......2
II.        An Accurate Inventory of All Hardware and Software Components Is Essential for
           Ensuring Adequate System Security.................................................................................................3
III.       Deficiencies in NTIA’s Plan of Action and Milestones Process Undermine Effective
           Remediation of Security Weaknesses .............................................................................................4
IV.        Inadequate IT Security Workforce Management and Lack of IT Security Policies
           Adversely Affect NTIA’s IT Security Program ..............................................................................5
V.         Significant Deficiencies in Key Security Areas Increase NTIA’s Exposure to Cyber
           Attacks....................................................................................................................................................7
Conclusion ...................................................................................................................................................... 10

Recommendations ......................................................................................................................................... 11

Summary of Agency Response and OIG Comments............................................................................. 12

Appendix A: Objective, Scope, and Methodology.................................................................................. 13

Appendix B: Agency Response ................................................................................................................... 15





FINAL REPORT NO. OIG-12-035-A
U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL


Introduction

The Internet, spectrum frequencies, and telecommunications are some of the world’s most
valuable resources in the information age. NTIA is principally responsible for advising the
President on telecommunications and information policy issues, such as expanding broadband
Internet access and adoption in America, ensuring that the Internet remains an engine for
continued innovation and economic growth, managing the federal government's use of
spectrum, and ensuring that America's domestic and international spectrum needs are met
while making efficient use of this limited spectrum resource.

The Federal Information Security Management Act of 2002 (FISMA) 1 requires agencies to
secure systems through the use of cost-effective management, operational, and technical
controls. The goal is to provide adequate security commensurate with the risk and extent of
harm resulting from the loss, misuse, or unauthorized access to or modification of information
collected or maintained by or on behalf of an agency. In addition, FISMA requires inspectors
general to evaluate agencies’ information security programs and practices, by assessing a
representative subset of agency systems, and the results are reported to the Office of
Management and Budget, the Department of Homeland Security, and Congress annually.

As part of an overall assessment of the Department’s information technology (IT) security
program, we evaluated information security controls and security-related documentation for
seven operational NTIA systems to determine whether key security measures adequately
protect NTIA’s systems and information. See appendix A for details regarding our objective,
scope, and methodology.




1
    Federal Information Security Management Act of 2002, 44 U.S.C. § 3541 (2002).


FINAL REPORT NO. OIG-12-035-A                                                                                1
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
As part of our FY 2012 FISMA work, we reviewed NTIA’s IT security program and found that
fundamental steps for securing NTIA’s information and systems have not been taken.
Additionally, the Department’s process for remediating vulnerabilities and informing
management of risks has not been effectively implemented. This has resulted in ineffective
management of security controls needed to protect NTIA’s systems and information.

    I.	   Inadequate Security Categorization Analysis Jeopardizes Critical Bureau

          Information


     NTIA’s information systems lack sufficient IT security controls because the required step of
     identifying the critical information in the systems has not been properly performed.
     Without understanding the types of information that a system processes, stores, or
     transmits, an organization cannot make an accurate determination of the risks to the system
     and select appropriate security controls. The process used to make this determination is
     referred to as security categorization. 2 Security categorization identifies the impact level for
     a system as high, moderate, or low based on the potential impact to an organization, should
     an event jeopardize its information and information systems.

     We found that five NTIA systems were miscategorized and should have been categorized at
     a higher impact level. NTIA systems categorized as low should be moderate or systems
     categorized as moderate should be high because NTIA did not identify all information types
     in its systems. For example we found that NTIA systems have information that (1) supports
     U.S. negotiators and interagency delegations in strategic international forums, (2) is used to
     advise elected officials and federal agencies in policy development, (3) includes proprietary
     commercial data, (4) supports law enforcement activities, or (5) supports the protection of
     elected officials. However, these information types were not identified in NTIA’s security
     categorization process.

     Because security categorization is a foundational step in the risk management process, 3
     NTIA’s inadequate categorization analysis adversely affects all other IT security activities,
     including selecting and implementing appropriate security control baselines, applying the
     appropriate rigor to control assessments, and monitoring security controls. Consequently,
     the current security control baselines for NTIA’s systems are not commensurate with the
     impact to NTIA’s mission if the information contained in these systems became unavailable,
     exposed, or altered. Therefore, the current security controls do not meet the
     Department’s security requirements to adequately protect its systems.

2
  Federal Information Processing Standard 199 provides security categorization guidance for non-national security
systems. National Institute of Standards and Technology, February 2004. Standards for Security Categorization of
Federal Information and Information Systems, FIPS 199. Gaithersburg, MD: NIST.
3
  The National Institute of Standards and Technology outlined a six-step process to manage risks within an
information system; security categorization is the first step. National Institute of Standards and Technology,
February 2010. Guide for Applying the Risk Management Framework to Federal Information Systems, NIST SP 800-
37. Gaithersburg, MD: NIST.


FINAL REPORT NO. OIG-12-035-A                                                                                       2
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


    II.	   An Accurate Inventory of All Hardware and Software Components Is
           Essential for Ensuring Adequate System Security

      NTIA did not properly identify all components of its systems and, therefore, has not
      identified the assets that need protection, nor can it provide assurances that security
      measures are properly implemented. Without an accurate, regularly maintained inventory of
      hardware and software components, the overall system and its information face increased
      risk of a successful attack through the exploitation of unmaintained and unauthorized
      components.

      Hardware and Operating Systems

      Our assessment of NTIA’s network identified 44 servers that were not listed in NTIA’s
      official inventory. This is almost double the number of officially reported servers. Our
      assessment also found two operating systems not listed in NTIA’s official inventory. Because
      these servers and operating systems were not properly identified, the risks posed to NTIA’s
      systems were neither appropriately conveyed to management nor appropriately managed.
      The following are some specific risks:

      •	 A server running Microsoft Windows 2000 operating system. This product has not been
         supported by Microsoft since July 2010, and thus, critical security vulnerabilities have not
         been remediated, increasing the risk of compromise.

      •	 Five servers owned and operated by the Commerce Office of Security on NTIA
         networks. Since there was a lack of formal agreement or assurance of implemented
         security controls on these servers, they pose additional risks to NTIA’s systems.
         Similarly, NTIA’s lack of security controls poses risks to the Office of Security’s servers.

      •	 Two operating systems (Windows 7 and VMware 4) not listed in NTIA’s inventory.
         These operating systems have unique requirements, which—if not addressed—can
         create significant vulnerabilities in NTIA’s systems. For example, the addition of a virtual
         environment with VMware servers to support multiple operating systems and functions
         requires careful consideration. Operation of a virtual environment requires that both
         the host (VMware) and the guest (such as Windows or Linux) have implemented
         security controls. Identifying all operating systems is critical to determining key risk
         factors (specific risks posed by each new device or operating system).




4
 VMware is a software product that provides virtualization. Today’s computer hardware was generally designed to
run a single operating system and a single application, leaving most machines vastly underutilized. Virtualization
allows multiple virtual machines to run on a single physical machine, with each virtual machine sharing the
resources of that one physical computer. Different virtual machines can run different operating systems and
multiple applications on the same physical computer.


FINAL REPORT NO. OIG-12-035-A                                                                                    3
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

    Unauthorized Software

    We also found frequent instances of software, including extremely outdated and
    unsupported software such as Web browsers and music software, which was not identified
    in NTIA’s baseline (i.e., the software that is authorized to be on the system). This indicates
    a lack of both definition and control over what software is installed within the system.
    Incomplete or inaccurate software baselines can introduce unnecessary vulnerabilities into a
    system.

    Furthermore, we found unauthorized data files, related to movies and games, typically
    associated with peer-to-peer (P2P) file sharing technology, indicating that P2P software had
    previously been installed on some components. The Department prohibits the use of P2P
    technology unless it supports an official business requirement. Allowing system users to
    install and use this type of software increases the risk of introducing malware and can lead
    to violation of copyright laws.

    Critical security requirements cannot be properly established until system hardware and
    software components are accurately identified. Further, a lack of controls to detect and
    remove unauthorized or outdated software can lead to malware being introduced into
    NTIA systems.

 III.	   Deficiencies in NTIA’s Plan of Action and Milestones Process Undermine
         Effective Remediation of Security Weaknesses

    NTIA lacks an effective process to correct IT security weaknesses. The established and
    required mechanism to accomplish vulnerability remediation is the plan of action and
    milestones (POA&M) process. POA&Ms provide valuable oversight and communicate risk
    to management, the Department, the Office of Management and Budget, and system staff by
    conveying the status and number of IT security weaknesses that exist in a system.
    Management also uses POA&Ms when deciding whether to grant systems authorization to
    operate.

    We found that NTIA was not using POA&Ms to document all known IT security
    weaknesses in five of its systems. For example, our assessments found that significant
    vulnerabilities, previously identified by an independent assessment of NTIA’s networks in
    2009, still exist but have not been documented in POA&Ms.

    Conversely, when NTIA had created POA&Ms, they were not used to effectively track or
    remediate weaknesses. For example, we found POA&Ms were inappropriately closed or
    canceled because corrective action plans were too vague to implement or risk was
    inappropriately accepted without remediation. Many of the POA&Ms lacked critical
    elements such as milestones, due dates, or deadlines. When deadlines were established,
    they were not met. Half of all security weaknesses documented in POA&Ms remain
    unremediated and are classified as delayed.




FINAL REPORT NO. OIG-12-035-A                                                                      4
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

    Furthermore, NTIA management is not receiving information needed to determine the risk
    associated with unimplemented controls. NTIA has not followed the process required by
    Department policy to inform senior management about the status of security controls that
    cannot be fully implemented. The policy requires system owners to use POA&Ms to track
    and manage progress toward full implementation of required security controls. Our
    assessments found that when required security controls that have not been fully
    implemented are identified, POA&Ms are not created; rather, the associated risks have been
    accepted by the system owner. However, the authorizing official—not the system owner—
    is responsible for determining the acceptability of risk associated with unimplemented
    controls.

    An effective process to remediate weaknesses is critical to an IT security program. NTIA
    management should establish this process immediately to ensure that corrective actions are
    appropriately planned and tracked.

 IV.	   Inadequate IT Security Workforce Management and Lack of IT Security
        Policies Adversely Affect NTIA’s IT Security Program

    The major contributing factors to NTIA’s serious IT security program deficiencies are
    weaknesses in the management of its IT security staff and the lack of program-level policies
    and procedures.

    IT Security Workforce Management

    NTIA has not taken the necessary steps to ensure that personnel with IT security
    responsibilities have appropriate training or certifications. At the time of our review, most
    of NTIA’s IT security staff did not have the requisite knowledge or appropriate
    qualifications to implement and maintain the security measures necessary to protect the
    information stored and transmitted on a system. We found that 8 of 10 NTIA personnel
    with IT security responsibilities have not completed IT security training in the past 2 years
    and 9 of 10 do not have appropriate certifications (see table 1 for details).

    According to Department policy issued in September 2010, 5 personnel filling key IT security
    positions are required to obtain professional certifications or attend training annually based
    on their roles (see table 1 for details). If these staff members do not meet these
    requirements, NTIA must create a POA&M, identifying the risk to the organization posed
    by the staff members’ lack of qualifications. At this time, NTIA has not identified the risks
    posed by these deficiencies, nor has it appropriately addressed them in POA&Ms.

    Additionally, NTIA is not appropriately holding key IT security staff responsible for
    performing duties related to their positions. Department policy 6 requires that performance

5
  Commerce Interim Technical Requirements, September 2010, Information System Security Training for Significant
Roles Version 5.0, CITR-006, Washington, D.C.: U.S. Department of Commerce, Office of the Chief Information
Officer.
6
  Memorandum from Deborah A. Jefferson, Deputy Chief Human Capital Officer and Director for Human Resources
Management, and Suzanne Hilding, Chief Information Officer to Secretarial Officers and Heads of Operating Units,


FINAL REPORT NO. OIG-12-035-A                                                                                  5
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

    plans for individuals in IT security roles include Department-specified responsibilities. For
    example, an information system owner is responsible for implementing and monitoring
    system security controls, and an information system security officer is responsible for
    creating and maintaining authorization documentation. For the past 2 fiscal years (FY 10 and
    FY 11), performance plans for 16 out of 17 IT personnel did not contain the required
    responsibilities. Furthermore, a review of FY 12 performance plans found that requirements
    for designation of responsibility are still unmet.

    Table 1. Findings for NTIA IT Security Workforce Management and Policies


          Key Position               Requirement             NTIA Compliance               Risk/Impact

                                                   Training

     Authorizing official        Minimum of 1 hour of      2 of 2 personnel did not     People are the
                                 role-specific IT          meet this requirement        foundation of an
                                 security training         for the current fiscal       effective IT
                                                           year. Nor had they           security program
                                                           received role-based          and training is an
                                                           training for the past 2      important
                                                           fiscal years.                mechanism to
                                                                                        ensure that they
     Information system          Minimum of 2 hours        6 of 8 personnel did not     have the requisite
     owner                       of role-specific IT       meet this requirement        knowledge, skills,
                                 security training         for the current fiscal       and abilities.
                                                           year. Nor had they
                                                           received role-based
                                                           training for the past 2
                                                           fiscal years.

                                                 Certification

     IT security officer,        Approved security-        9 of 10 personnel do         Industry
     information system          related professional      not have an appropriate      certifications
     security officer,           certification             IT security certification.   provide greater
     certification agent, and                                                           assurance that staff
     incident response                                                                  has obtained a base
     responder                                                                          set of IT security
                                                                                        knowledge or
                                                                                        skills.

    Source: OIG Analysis and Department Policy
    Note: During our audit fieldwork, the individual acting as NTIA’s chief information officer (CIO) was not
    required to have CIO-related training; therefore, the total number of staff with training deficiencies does not
    include the CIO position.



December 7, 2009: Information System Security Critical Elements (Stand-alone Elements or Collateral Duties); and
memorandum from Deborah A. Jefferson, Deputy Chief Human Capital Officer and Director for Human Resources
Management, and Suzanne Hilding, Chief Information Officer to Secretarial Officers and Heads of Operating Units,
February 24, 2010: Executive Critical Elements for Information System Security Roles.


FINAL REPORT NO. OIG-12-035-A                                                                                         6
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

      Program-Level Policies and Procedures

      NTIA has not developed any bureau-level IT security policies or procedures for
      implementing Department and federal information security standards. While general IT
      security requirements are outlined in Department policy and in NIST Special Publication
      800-53, Recommended Security Controls for Federal Information Systems and Organizations, 7 each
      bureau must evaluate these security requirements and develop policies and, more
      important, specific procedures to ensure that security requirements are defined, properly
      coordinated, and consistently implemented. The current practice at NTIA (because nothing
      has been defined at the program level) is to allow each system owner to independently
      interpret Department policy and NIST guidance. This uncoordinated approach, combined
      with a lack of appropriate training for its IT security staff, has contributed heavily to the
      inconsistent and inadequate security practices in NTIA’s IT security program. The creation
      of program policies and procedures would ensure that organizational strategies, guidelines,
      and security roles are defined and communicated, providing greater assurance of an
      effective implementation of security measures necessary for the protection of NTIA’s
      systems.

    V.	   Significant Deficiencies in Key Security Areas Increase NTIA’s Exposure to
          Cyber Attacks

      NTIA has not sufficiently implemented security controls related to any of the areas we
      evaluated: account management, secure configurations, least functionality, vulnerability
      scanning and patch management, and auditing and monitoring.

      Account Management

      NTIA’s Active Directory implementation is used to control user access to system resources
      and information. Although NTIA had made updates to accounts in its Active Directory
      implementation just before our review, we identified several issues relating to inadequate
      account management practices. Specifically, our assessment revealed active accounts for
      two users, who NTIA indicated were no longer working for NTIA. However, our
      assessment revealed that one of the accounts was for an individual who had accepted a
      position at NTIA but never started and that NTIA had no record of the other individual.
      This indicates a lack of coordination between human resources and information assurance
      personnel responsible for establishing and maintaining user access to NTIA’s systems. The
      existence of an account for a user unknown to NTIA raises the concern that user accounts
      could be created for nefarious purposes yet go undetected. NTIA does not have any
      documented account management policies or procedures and thus lacks a process to help
      ensure that only legitimate users are provided access to information system resources.
      NTIA disabled these two accounts only after we informed management that they were still
      active.


7
  National Institute for Standards and Technology, August 2009. Recommended Security Controls for Federal
Information Systems and Organizations, SP 800-53. Gaithersburg, MD: NIST.


FINAL REPORT NO. OIG-12-035-A                                                                               7
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

    We also found 31 accounts, including 6 administrator accounts, with passwords that were
    not set to expire and thus never needed to be changed—a violation of Department policy,
    which requires that passwords be changed at least once every 60 days. Furthermore, we
    found that 114 (out of a total of 821) accounts that had not been accessed within 90 days of
    our assessment had not been disabled; 2 of these accounts had not been accessed since
    January 2010. Department policy requires disabling accounts after 30 days of inactivity.

    Secure Configurations

    NTIA has not defined or implemented required secure configurations for any IT products
    (i.e., operating systems and application software such as databases and Web applications).
    The definition and implementation of secure IT configurations are fundamental controls
    needed to secure an information system.

    Least Functionality

    NTIA has not performed the required process of limiting system and application
    functionality to ensure that only necessary services are enabled. The lack of definition and
    control over what software and services are authorized to operate on NTIA’s systems
    leaves them open to additional risk by offering attackers opportunities for access to system
    components through open ports (doors through which an attacker can enter) and
    unauthorized software and services (such as websites, databases), having specific
    vulnerabilities.

    We found 156 unique open ports on NTIA’s workstations, and each port was identified on
    many different workstations. Specifically, we identified ports (1) running unauthorized Web
    servers that were operating websites, (2) commonly used by malicious software, and (3)
    running suspicious software 8 (see table 2 for details).




8
 Suspicious software is (1) unauthorized, (2) malicious, or (3) not defined as required to support legitimate
functions and services within the system.


FINAL REPORT NO. OIG-12-035-A                                                                                   8
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

Table 2. Unique Open Ports Operating on NTIA’s Workstations

            Port Type                         Risk                          Impact                Number of
                                                                                                 Unique Open
                                                                                                    Ports

    Web                          Website vulnerabilities,         Additional risk of system               7
                                 additional avenue of external    compromise and
                                 attack, operation of             information exposure
                                 unauthorized websites

    Malicious software           Operation of unauthorized        Data exfiltration, further             19
                                 software resulting in infected   compromise of system
                                 system components                components

    Suspicious software          Operation of unauthorized        Provides avenues of access            130
                                 software can introduce           to a system and critical
                                 additional vulnerabilities       information

    Total                                                                                               156

Source: OIG Analysis

       Additionally, NTIA has not developed policy or practices nor has it established a minimal
       operational baseline of ports and services for each IT system component (for example,
       servers, workstations, or applications) to implement least functionality. Until NTIA
       implements controls associated with least functionality, its information and systems will
       remain exposed to undue risk.

       Vulnerability Scanning and Patch Management

       NTIA’s vulnerability scanning and patch management are not effectively identifying and
       remediating security weaknesses. Although NTIA scanned some of its systems, the scans
       were not performed with the required frequency. Furthermore, our review of one year’s
       worth of scanning results found more than 30,000 vulnerabilities that went unremediated
       with no POA&Ms created to track them. In addition, our assessment of NTIA’s databases
       identified significant and easily exploitable vulnerabilities that could lead to SQL injection 9 or
       privilege escalation attacks. 10

       Auditing and Monitoring

       NTIA has not implemented an auditing and monitoring program, and its current plans do
       not meet Department requirements or provide assurances for the effective monitoring of
       risks to its information. Auditing and monitoring are critical to the security of an
       organization’s systems and information, because by auditing and monitoring real-time

9
  SQL injection is a technique often used to attack databases through a website.

10
   A privilege escalation attack is a type of network intrusion that takes advantage of programming errors or design

flaws to grant the attacker elevated access to the network and its associated data and applications.



FINAL REPORT NO. OIG-12-035-A                                                                                      9
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

    activity and access to a system, an organization can better identify attacks on and
    compromises of its systems and information. Department policy and NIST standards require
    operating units to actively monitor their systems and information for suspicious activity,
    investigate such activity, and report their findings to officials.

    NTIA plans to have audit logs available for analysis, but does not plan on actively monitoring
    its systems for malicious activity; it will rely on the Herbert Clark Hoover Building’s
    Security Operations Center to provide notification of security events. However, the
    Security Operations Center only monitors external security events and does not monitor
    activity on NTIA’s internal networks.

Conclusion

    Although the IT security controls we assessed have been required for all Department
    systems since 2006, NTIA has not taken fundamental steps to implement these controls.
    Therefore, greater attention from management is needed to ensure that NTIA’s systems
    and information are adequately secured. NTIA staff has been briefed on our technical
    assessment results and is taking action to correct the deficiencies identified.




FINAL REPORT NO. OIG-12-035-A                                                                   10
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL


Recommendations

    To make NTIA’s information security program and practices more effective, the Assistant
    Secretary for Communications and Information should ensure the following:

    1.	 Revise the authorization status of NTIA’s systems to interim authorization to operate
        until the following activities have been completed:

             a.	 system owners and appropriate NTIA officials collaborate to identify and
                 categorize all information types that are processed, stored, or transmitted by
                 each system and categorize each system accordingly,

             b.	 system owners develop and maintain an accurate hardware and software
                 inventory for their systems,

             c.	 NTIA implements and assesses appropriate IT security controls according to
                 Department policy and NIST SP 800-53, and

             d.	 NTIA follows the POA&M process required by the Department’s IT security
                 policy.

    2.	 System owners, IT security officers, authorizing officials, and other staff with critical IT
        security roles are appropriately trained, earn certifications as required by Department
        policy, and have the required metrics incorporated into their performance plans.

    3.	 NTIA’s chief information officer and IT security officer develop and maintain NTIA
        security policies, procedures, standards, and guidance consistent with departmental and
        federal requirements.




FINAL REPORT NO. OIG-12-035-A                                                                          11
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
In response to our draft report, the Assistant Secretary for Communications and Information
stated that NTIA concurred with our findings and is taking appropriate action to address them.
The response also summarized the steps NTIA has implemented and will take to address the
recommendations.

We met with NTIA officials to verify concurrence with our recommendations and to clarify the
following statement in NTIA’s response: “However, NTIA cannot validate the OIG assertion
that five NTIA systems have been miscategorized.” According to NTIA officials, the statement
is meant to convey agreement that NTIA had performed inadequate categorization analysis on
the systems and, at the time NTIA issued its response to our draft report, that NTIA had not
completed the categorization process, which includes identifying all the information types that
exist within its systems. NTIA did concur with our recommendations and agreed that OIG’s
analysis was correct.




FINAL REPORT NO. OIG-12-035-A                                                                12
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


Appendix A: Objective, Scope, and
Methodology
Our objective was to assess the effectiveness of NTIA’s IT security program by determining
whether key security measures adequately protect its systems and its information. To do so,
we

    •	 assessed a subset of security controls on information system components by conducting
       vulnerability scans and tailored manual assessments;

    •	 reviewed system-related artifacts, including policy and procedures, planning documents,
       and other material supporting the security authorization process; and

    •	 interviewed operating unit personnel, including system owners, IT security officers, IT
       administrators (network, system, database), and organizational directors and
       administrators.

We reviewed NTIA’s compliance with the following applicable provisions of law, regulations,
and mandatory guidance:

    •	 the Federal Information Security Management Act of 2002

    •	 IT Security Program Policy and Minimum Implementation Standards, U.S. Department of
       Commerce, introduced by the Chief Information Officer on March 9, 2009, and
       applicable Commerce Information Technology Requirements

    •	 NIST Federal Information Processing Standards Publications

             o	 199, Standards for Security Categorization of Federal Information and
                Information Systems

             o	 200, Minimum Security Requirements for Federal Information and Information
                Systems

    •	 NIST Special Publications

             o	 800-18, Guide for Developing Security Plans for Information Technology Systems

             o	 800-37, Guide for Applying the Risk Management Framework to Federal
                Information Systems

             o	 800-53, Recommended Security Controls for Federal Information Systems and
                Organizations




FINAL REPORT NO. OIG-12-035-A                                                                    13
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

             o	 800-53A, Guide for Assessing the Security Controls in Federal Information
                Systems

             o	 800-60, Guide for Mapping Types of Information and Information Systems to
                Security Categories, Volumes I and II

             o	 800-70, National Checklist Program for IT Products—Guidelines for Checklist
                Users and Developers

             o	 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our fieldwork from February to May 2012. We performed this audit under the
authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated August 31, 2006. We conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions.




FINAL REPORT NO. OIG-12-035-A                                                                 14
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                    The AsslsU!nt Secretary fop Communications
                                                    and Information
                                                    Wash1ngtal'l, D.C. 20230


                                                    AUG 1 5 2a12
  SUBJECT:        NTIA Response to the Office of Inspector General's Draft Report, Significant IT
                  Security Program Improvements Are Needed ro Adequately Secure NT!A 's
                  Systems

  FROM:           LaMence E. Sttickling   ~£ ~
  TO:             Mr_ Allen Crawley
                  Assistant lll~"Pector General
                                                             v          0
                  Office of the Inspector General

  Thank you for the opportunity to comment on the Office oflnspectorGeneral's Draft Report.
  Significant IT Security Program lmprorementv Are Needed to Adequately Secure NT/A 's
  Systems {the Report). Your comprehensive review of the NTIA IT security program documents
  a situatjon with our IT security program in respouse to which we are already taking appropriate
  action to remedy. A summary of our response to your specific findings is attached.

  Since your review ofNTIA's IT security program in March. NTIA strengthened its IT
  management team by hiring a new Chief Infonnation Officer in April and Deputy Chief
  Infonnation Officer in July. I have tasked NTIA's new IT leadership with improving NTTA ·sIT
  operations, specifically f<><:using on IT security management, asset control, remediation
  improvement, workforce management, and security oontrols ovmighl TTA already
  demonstrated improvement in IT security duri ng a Department of Dcfc.:nsc (DOD) inspection in
  May, 2012. The DOD inspection of security basel ines and vulnerability managcmc.-nt of selected
  NTIA systems resulted in a rating of "Excellent".

  Howe.. er, as your Report notes. NTlA sti11 must overcome a numberofiT security challenges.
  We have made significant progress in the areas addressed in the Report, including: establishing
  an Inter-Agency Agreement with the DOD (SPAWAR) to provide .r esources to review security
  categorizations and complete Authorization and Accreditations of systems: completing a totaJJT
  asset inventory; clarifying and impr-oving accountability for NTIA security roles and
  responsibilities; aligning security management operations w ith Department guidan ce~
  establishing 17 security policies (with plans for an add itional four)~ and remediating many
  identified deficiencies in IT security controls.

   We recognize the important role of the OIG in promoting improvements in operating unit
   practices and conformance to applicahle departmental and federal requirements. As o utlined in
   the Attachment, we have taken immediate steps to address each recommendation presented in
  _y our report.

    'TTA IS co111mitted to becommg an exemplary agency for IT management. l look forward to
   working wi th you as NT IA continues to address the recommendations in the Report and




FINAL REPORT NO. OIG-12-035-A                                                                         15
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-12-035-A                           16
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-12-035-A                           17
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-12-035-A                           18
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-12-035-A                           19
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-12-035-A                           20
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




011200000142





FINAL REPORT NO. OIG-12-035-A                           21
